llutteb iptate5 Court of Zippeaft
for tbe Cigbtl) Circuit

No. 19-2693

Lorenzo Robertson
Plaintiff - Appellant
v.
Ozell Pace, Corporal, Varner Unit, ADC; Ernest Hester, III, Lieutenant, Varner
Unit, ADC; Aviva Smith, Sergeant, Varner Unit, ADC; Jonathan Martin, Captain,
Varner Unit, ADC; Wendy Kelley, Director, ADC; James Gibson, Warden
Defendants - Appellees

Appeal from United States District Court
for the Eastern District of Arkansas - Pine Bluff

Submitted: April 1, 2020
Filed: April 9, 2020
[Unpublished]

Before COLLOTON, WOLLMAN, and KELLY, Circuit Judges.

PER CURIAM.

Appellate Case: 19-2693 Page: 1

Date Filed: 04/09/2020 Entry ID: 4900713

Arkansas inmate Lorenzo Robertson appeals the district court's' dismissal,
without prejudice, of his 42 U.S.C. § 1983 action based on his failure to exhaust his
administrative remedies as required by the Prison Litigation Reform Act (PLRA). 42
U.S.C. § 1997e(a).
As a preliminary matter, we conclude that the district court did not abuse its
broad discretion in denying Robertson's ongoing attempts to lift the stay of discovery
while it resolved the exhaustion issue, see Sheets v. Butera, 389 F.3d 772, 780 (8th
Cir. 2004) (explaining that rulings on discovery matters are reviewed under very
deferential gross abuse of discretion standard); see also Pavey v. Conley, 544 F.3d
739, 742 (7th Cir. 2008) (concluding that a case should not proceed to pretrial
discovery until the PLRA exhaustion is resolved by the district court judge); and,
contrary to Robertson's assertions, we discern no judicial bias that warranted
disqualification or a change in venue, see Am. Prairie Constr. Co. v. Hoich, 560 F.3d
780, 789-90 (8th Cir. 2009) (explaining that a judge is presumed impartial, and the
party moving for disqualification has substantial burden of proving otherwise);
Dossett v. First State Bank, 399 F.3d 940, 952-53 (8th Cir. 2005) (concluding that
adverse rulings, including the failure to permit discovery, "almost never" constitute
a valid basis for recusal). We also note that Robertson does not challenge the
dismissal of Director Kelley or Warden Gibson. See Ahlberg v. Chrysler Corp., 481
F.3d 630, 638 (8th Cir. 2007) (points not meaningfully argued on appeal are waived).
Having carefully reviewed the record and the parties' arguments on appeal, we
further conclude that the district court properly granted summary judgment based on
Robertson's failure to exhaust his administrative remedies. See Porter v. Sturm, 781
F.3d 448, 451 (8th Cir. 2015) (grant of summary judgment is reviewed de novo,
'The Honorable D.P. Marshall, Jr., Chief Judge, United States District Court
for the Eastern District of Arkansas, adopting the report and recommendations of the
Honorable Beth Deere, United States Magistrate Judge for the Eastern District of
Arkansas.
-2-

Appellate Case: 19-2693 Page: 2

Date Filed: 04/09/2020 Entry ID: 4900713

viewing the record in the light most favorable to nonmovant). Specifically, we
conclude that it was beyond genuine dispute that Robertson did not name
Correctional Officer Pace, Lieutenant Hester, Sergeant Smith, or Captain Martin in
his grievances and did not otherwise follow the Arkansas Department of Correction's
policy and procedures when pursing his grievances, and there is no competent
evidence that prison officials thwarted his grievance efforts. See Woodford v. Ngo,
548 U.S. 81, 90 (2006) (explaining that proper exhaustion demands compliance with
a prison's critical procedural rules); Townsend v. Murphy, 898 F.3d 781, 784 (8th
Cir. 2018) (concluding that the boundaries of proper PLRA exhaustion are
determined by the prison's specific administrative requirements, that a prisoner
cannot opt out of all administrative remedies even when some are unavailable, and
that a prisoner failed to exhaust his administrative remedies by not naming the
relevant prison officials in his grievance).
Accordingly, the motion to appoint counsel is denied, and the judgment is
affirmed. See 8th Cir R. 47B.

-3-

Appellate Case: 19-2693 Page: 3

Date Filed: 04/09/2020 Entry ID: 4900713

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-2693

Lorenzo Robertson
Plaintiff - Appellant
v.
Ozell Pace, Corporal, Varner Unit, ADC; Ernest Hester, III, Lieutenant, Varner Unit, ADC;
Aviva Smith, Sergeant, Varner Unit, ADC; Jonathan Martin, Captain, Varner Unit, ADC; Wendy
Kelley, Director, ADC; James Gibson, Warden
Defendants - Appellees
Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(5 :18-cv-00123-DPM)
JUDGMENT

Before COLLOTON, WOLLMAN, and KELLY, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
April 09, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Case 5:18-cv-00123-DPM Document 90 Filed 07/25/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
LORENZO ROBERTSON
ADC #132212
v.

PLAINTIFF

No. 5:18-cv-123-DPM

OZELL PACE, Corporal, Varner Unit,
ADC; ERNEST HESTER, III, Lieutenant,
Varner Unit, ADC; AVIVA SMITH, Sergeant,
Varner Unit, ADC; and JONATHAN MARTIN,
Captain, Varner Unit, ADC

DEFENDANTS

ORDER
On de novo review, the Court adopts Magistrate Judge Deere's
recommendation, NP 86, and overrules Robertson's objections, No 88 &
M. 89. FED. R. Civ. P. 72(b)(3). The Court believes Robertson when he
says that sending his grievance to the Director was an honest mistake.
The Court understands Robertson's frustration with not having his case
decided on the merits. But the law on exhaustion is clear and strict; this
Court must follow that law; and Robertson's misunderstanding the
grievance procedure isn't a sufficient reason to excuse the exhaustion
requirement. q Ross v. Blake, 136 S. Ct. 1850 (2016). The motion for
summary judgment, NQ 36, is therefore granted. Robertson's remaining
claims will be dismissed without prejudice for failure to exhaust. All
other pending motions are denied as moot.

Case 5:18-cv-00123-DPM Document 90 Filed 07/25/19 Page 2 of 2

So Ordered.
6L912)A4rA.S444".

D.P. Marshall Jr.
United States District Judge
?ct

-2-

MIME-Version:1.0 To:ared_ecf@localhos
omain Message- Id :<8324850@ared.uscourts.go
v. Pace et al Judgment 1983 Content-Type.. ntml

ectActivity in Case 5:18-cv-00123-DPM Robertson

This is an automatic e-mail message generated by the GNI/EU' system. Please DO NOT RESPOND to this e-mail because the mail box is
unattended.
***NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of Arkansas
Notice of Electronic Filing
The following transaction was entered on 7/25/2019 at 10:47 AM CDT and filed on 7/25/2019
Case Name:

Robertson v. Pace et al

Case Number:

5:18-cv-00123-DPM

Filer:
WARNING: CASE CLOSED on 07/25/2019
Document Number: 91
Docket Text:
JUDGMENT: Robertson's complaint is dismissed without prejudice. Signed by Chief Judge D. P. Marshall Jr. on 7/25/2019. (jak)

5:18-cv-00123-DPM Notice has been electronically mailed to:
Reid Philip Adkins reid.adkins@arkansasag.gov, agcivil@arkansasag.gov, katie.wilson@arkansasag.gov
5:18-cv-00123-DPM Notice has been delivered by other means to:
Lorenzo Robertson
ADC #132212
PINE BLUFF UNIT
Arkansas Department of Correction
890 Free Line Drive
Pine Bhp AR 71603-1498
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dceciStamp_ID=1095794525 [Date=7/25/2019] [FileNumber=8324848-0
] [45 e854df4c8cf756cal405 ecOd082c765d3a6713f48be5167b955a4dece008203e
abd021b219279f1b6c788df36f9f6bOldedfl e07a84c42ffilb7cdc02190cc]]

RECEIVED
AUG -4

mn

OFFICE OF THE CLERK
SUPREME COURT. U.S.

Case 5:18-cv-00123-DPM Document 86 Filed 07/01/19 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
LORENZO ROBERTSON,
ADC #132212
V.

PLAINTIFF

CASE NO. 5:18-CV-123-DPM-BD

OZELL PACE, et al.

DEFENDANTS
RECOMMENDED DISPOSITION

Procedures for Filing Objections
This Recommended Disposition (Recommendation) has been sent to Judge D.P.
Marshall Jr. Any party may file written objections to the Recommendation's findings and
conclusion. Objections should be specific and should include the factual or legal basis for
the objection.
To be considered, objections must be filed with the Clerk of Court within 14 days
of this Recommendation. If no objections are filed Judge Marshall can adopt this
Recommendation without independently reviewing the record. Also, if parties do not filed
objections, they risk waiving the right to appeal questions of fact.
Background
Plaintiff Lorenzo Robertson, an inmate in the Arkansas Department of Correction
(ADC), filed this lawsuit without the help of a lawyer under 42 U.S.C. § 1983. (Docket
entry #2) Mr. Robertson claims that Defendants Pace, Hester, Martin, and Smith
(Defendants) failed to conduct routine security checks and property searches at the

Case 5:18-cv-00123-DPM Document 86 Filed 07/01/19 Page 2 of 6

ADC's Varner Unit. He alleges that a fellow inmate stabbed him on January 29, 2018, as
a direct result of the Defendants' failure. (#2)
Defendants moved for summary judgment, contending that Mr. Robertson had not
fully exhausted his administrative remedies at the time he filed this lawsuit. (#36) After
reviewing the Defendants' evidence in support of their motion, this Court recommended
that the motion be denied because Defendants had not met their burden to show that Mr.
Robertson did not exhaust his grievance. (#46); see Porter v. Sturm, 781 F.3d 448, 451
(8th Cir. 2015) (citing Jones v. Bock, 549 U.S. 199, 211-12, (2007)) (holding that failure
to exhaust is an affirmative defense; thus, defendants have the burden of raising and
proving the absence of exhaustion).
Defendants objected to the partial recommendation and, in their objection,
included supplemental material for Judge Marshall to consider. (#49) In light of the new
evidence, Judge Marshall remanded the case for further consideration of the exhaustion
issue. (#57)
On May 6, 2019, Mr. Robertson appealed the order denying appointment of
counsel (#12), the order staying discovery (#35), and the order denying Mr. Robertson's
motion for trial (#56). (#72) The Eighth Circuit has now dismissed Mr. Robertson's
appeal for lack of jurisdiction. (#85) Accordingly, the issue of exhaustion is now ripe for
review.

2

Case 5:18-cv-00123-DPM Document 86 Filed 07/01/19 Page 3 of 6

III.

Discussion
There are four grievance forms in the record relevant to the claims raised in this

lawsuit: VU-18-00085 (#38-3, p.1); VU-18-00145 (#38-3, p.4); an unnumbered unit level
grievance form submitted to a staff member on February 1, 2018 (Grievance A) (#39,
p.3); and an unnumbered unit-level grievance Mr. Robertson dated February 9, 2018
(Grievance B) (#39, p.4).
It is undisputed that Mr. Robertson failed to fully exhaust grievances VU-1800085 and VU-18-00145.' It is also clear he did not fully exhaust Grievance B, given that
the section indicating that the grievance was submitted to a problem solver for a
resolution at step one is blank. 2 (#39 at 4)
That leaves Grievance A. As with the other three grievances, Grievance A was not
fully exhausted. It was signed by a staff member on February 1, 2018, but it did not
proceed far enough into the process to be assigned a number. The question remains as to
whether Mr. Robertson should be excused for failing to fully exhaust Grievance A.
In Grievance A, which was written after he was stabbed, Mr. Robertson
complained that he had written an inmate request to Warden Jared (not a Defendant) and

' Mr. Robertson did not properly appeal VU-18-00085 to the deputy director; and he failed
to attach the form to his appeal in VU-18-00145. (#38-2; #38-3)
2 Grievance B appears to be identical to VU-18-00085, except that Grievance B is
unnumbered and bears a stamp toward the bottom of the sheet: "RETURNED TO
INMATE FOR THE FOLLWING REASON(S): NOT PROCESSED
ANSWERED/REJECTED OR A DUPLICATE."
3

•

Case 5:18-cv-00123-DPM Document 86 Filed 07/01/19 Page 4 of 6

to Classification asking to be moved. In Grievance A, Mr. Robertson stated that he did
not feel safe due to multiple stabbings that had occurred in his barracks. (#39, p.3)
A staff member noted on Grievance A that it was received and dated it February 1,
2018. (Id.) As with Grievance B, a stamp on the form indicates that the grievance was,
"RETURNED TO INMATE FOR THE FOLLOWING REASON(S): NOT PROCESSED
ANSWERED/REJECTED OR A DUPLICATE." (Id.) As noted in the previous
recommendation, the Defendants offered no explanation in their summary judgment
motion, beyond the stamped information, as to why Grievance A was rejected. (#46 at 5).
Because grievances VU-18-00085 and VU-18-00145 were filed after Mr.
Robertson submitted Grievance A, his complaints in Grievance A could not have been
"previously answered/rejected" in—or duplicative of—VU-18-00085 or VU-18-00145.
The only remaining option is "not processed." The Court was left to speculate as to why
Grievance A was "not processed." if ADC officials' failure to process Grievance A was
in violation of ADC policy, they could not successfully argue that Mr. Robertson failed to
exhaust his administrative remedies prior to filing this lawsuit. See Green v. Harmon, No.
2:07-CV-3-JMM (E.D. Ark. Feb. 8, 2007) (while failure to process a grievance is not
actionable, it may defeat an affirmative defense of failure-to-exhaust). As noted in the
October 31, 2018 Recommendation, failure to exhaust administrative remedies is an
affirmative defense and must be supported by admissible evidence. (#46)
In their objection to the October Recommendation, Defendants explained, for the
first time, why Grievance A was not processed: Mr. Robertson sent his copy of Grievance

4

Case 5:18-cv-00123-DPM Document 86 Filed 07/01/19 Page 5 of 6

A to the wrong place. (#49) That is, he sent it to the grievance coordinator's office at

ADC's central office rather than depositing it in the grievance box or giving it to a staff
member. (Id.) Under the ADC's grievance procedure, set out in Administrative Directive
(AD) 14-16, an inmate may submit a grievance by only two means—i.e., by depositing it
in the grievance box or by giving it to a staff member; otherwise, the grievance will not
be "processed." (#38-1 at 8)
Mr. Robertson has presented no evidence to rebut the Defendants' new evidence
showing that he erroneously sent Grievance A to the grievance coordinator's office.
Likewise, there is no evidence to show that ADC officials interfered with Mr.
Robertson's attempt to properly file Grievance A or that they failed to process a
Grievance A in contravention of the grievance policy.
Mr. Robertson argues that he should be excused from the exhaustion requirement
because Grievance A was never returned to him. (#51) Under the explicit terms of the
Grievance Policy, inmates may proceed through the process even if officials fail to return
a grievance within the time specified in the policy.
Defendants have met their burden to show that Mr. Robertson did not fully exhaust
any of the claims he raises here before filing his complaint. They are entitled to dismissal
without prejudice.

5

Case 5:18-cv-00123-DPM Document 86 Filed 07/01/19 Page 6 of 6

IV.

Conclusion
The Court recommends that Defendants' motion for summary judgment on the

issue of exhaustion (#36) be GRANTED and that this case be DISMISSED, without
prejudice.
If the motion is granted, Mr. Robertson's pending motion to compel discovery
(#61), motion to change venue (#62), motion to lift the discovery stay (#64), second
motion to lift the discovery stay (#66), motion for a direct verdict (#70), motion for a status
update (#71), third motion to lift the discovery stay (#76), motion for evidentiary hearing
(#78), motion for acknowledgment (#83), and second motion for a direct verdict (#84)
should all be DENIED, as moot.
DATED this 1st day of July, 2019.

UNITED STATES MAGISTRATE JUDGE

6

SITED STATES COURT OF A _ 'ALS
FOR THE EIGHTH CIRCUIT
No: 19-2693
Lorenzo Robertson
Appellant
v.
Ozell Pace, Corporal, Varner Unit, ADC, et al.
Appellees

Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(5 : 18-cv-00123 -DPM)

ORDER
The petition for rehearing by the pane] is denied.
May 12, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-2693 Page: 1

Date Filed: 05/12/2020 Entry ID: 4912657

